TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Penalty Abatement Procedures Should Be
                   Applied Consistently to All Taxpayers and
                   Should Encourage Voluntary Compliance



                                      September 19, 2012

                              Reference Number: 2012-40-113




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                   HIGHLIGHTS


PENALTY ABATEMENT PROCEDURES                          TIGTA estimated the unabated penalties totaled
SHOULD BE APPLIED CONSISTENTLY                        more than $181 million. Further, the FTA waiver
TO ALL TAXPAYERS AND SHOULD                           is not used to its full potential as a compliance
ENCOURAGE VOLUNTARY                                   tool because it is granted to taxpayers before
                                                      they demonstrate full compliance by paying their
COMPLIANCE
                                                      current tax liability.
                                                      Taxpayer requests for penalty abatements were
Highlights                                            not always processed accurately. The IRS took
                                                      immediate corrective action to address this
Final Report issued on                                issue.
September 19, 2012
                                                      In addition, taxpayers who qualify for penalty
                                                      relief based on reasonable cause may receive
Highlights of Reference Number: 2012-40-113           FTA waivers instead, which can negatively affect
to the Internal Revenue Service Commissioners         some taxpayers.
for the Small Business/Self-Employed Division
and the Wage and Investment Division.                 WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS                                   TIGTA recommended that the FTA waiver be
                                                      better used as a compliance tool by ensuring
The Internal Revenue Code imposes a Failure to        taxpayers are aware of their potential to receive
File (FTF) penalty for failing to file a tax return   the waiver based on their past compliance
and a Failure to Pay (FTP) penalty for failing to     history. Receipt of the waiver should be
pay the tax shown on any tax return by the date       contingent upon taxpayers paying their current
prescribed. The IRS can abate both penalties          tax liability.
under certain circumstances. If the IRS does
not administer these and other penalties fairly       TIGTA also recommended that a process be
and accurately, taxpayers’ confidence in the tax      developed to address the negative impact to
system will be jeopardized.                           taxpayers who qualify for abatement of the
                                                      FTF and FTP penalties based on reasonable
WHY TIGTA DID THE AUDIT                               cause, but are given FTA waivers instead.
This audit was initiated to determine whether         In their response to the report, IRS officials
abatements of the FTF and FTP penalties were          agreed with the recommendations. The IRS
applied consistently and accurately. This audit       plans to study how best to use the FTA waiver
addresses the major management challenge of           as a compliance tool. It also plans to review the
Providing Quality Taxpayer Service Operations.        current process for application of an FTA waiver
WHAT TIGTA FOUND                                      prior to reasonable cause and its impact on
                                                      taxpayers who qualify for reasonable cause, but
The IRS waives FTF and FTP penalties for              instead are given an FTA waiver.
some taxpayers who have demonstrated full
compliance over the prior three years. The
purpose for granting the waiver, called a
First-Time Abate (FTA), is to reward past tax
compliance and promote future tax compliance.
However, most taxpayers with compliant tax
histories are not offered and do not receive the
FTA waiver.
TIGTA estimated that for Tax Year 2010,
approximately 250,000 taxpayers with
FTF penalties and 1.2 million taxpayers with
FTP penalties did not receive penalty relief even
though they qualified under FTA waiver criteria.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 19, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Penalty Abatement Procedures Should Be Applied
                             Consistently to All Taxpayers and Should Encourage Voluntary
                             Compliance (Audit # 201140026)

 This report presents the results of our review to determine whether Failure to File and Failure to
 Pay penalty abatements were applied consistently and accurately. We focused our review on tax
 returns filed by individual taxpayers. This audit was included in our Fiscal Year 2011 Annual
 Audit Plan and addresses the major management challenge of Providing Quality Taxpayer
 Service Operations.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by
 the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (770) 617-6434.
                                         Penalty Abatement Procedures Should
                                      Be Applied Consistently to All Taxpayers and
                                        Should Encourage Voluntary Compliance




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Not All Taxpayers With Compliant Tax Histories
          Received the First-Time Abate Waiver. ....................................................... Page 3
                    Recommendation 1:.......................................................... Page 4

          Controls Were Not Adequate to Identify Employee
          Errors When Processing Abatement Requests .............................................. Page 5
          Taxpayers With Reasonable Cause for Penalty Abatements
          May Be Burdened by Current Procedures .................................................... Page 6
                    Recommendation 2:.......................................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measure ................................................................ Page 14
          Appendix V – Individual Master File Transcript for Computer Assessed
          Failure to Pay Tax Penalty ............................................................................ Page 16
          Appendix VI – Management’s Response to the Draft Report ...................... Page 18
         Penalty Abatement Procedures Should
      Be Applied Consistently to All Taxpayers and
        Should Encourage Voluntary Compliance




              Abbreviations

FTA    First-Time Abate
FTF    Failure to File
FTP    Failure to Pay
IRS    Internal Revenue Service
                                   Penalty Abatement Procedures Should
                                Be Applied Consistently to All Taxpayers and
                                  Should Encourage Voluntary Compliance




                                        Background

The Internal Revenue Code imposes a penalty for failing to file a tax return1 or to pay the tax
shown on any tax return2 by the date prescribed for filing (including extensions). Both the
Failure to File (FTF) and Failure to Pay (FTP) penalties are calculated based on figures taken
from the tax return. Therefore, neither penalty is assessed until after the tax return is filed. The
purpose of these penalties is to promote compliance with tax laws. In administering these and all
penalties, the Internal Revenue Service’s (IRS) internal guidelines provide the following four
principles:
       Consistency: The IRS should apply penalties
        equally in similar situations. Taxpayers base their      To promote compliance with tax
        perceptions about the fairness of the system on             laws, the IRS administers a
        their own experience and the information they             system of penalties. The IRS
                                                                  strives to ensure consistency,
        receive from the media and others. If the IRS does           accuracy, impartiality, and
        not administer penalties uniformly, overall                    representation when
        confidence in the tax system is jeopardized.                  administering penalties.

       Accuracy: The IRS must arrive at the correct
        penalty decision. Accuracy is essential. Erroneous penalty assessments and incorrect
        calculations confuse taxpayers and misrepresent the overall competency of the IRS.
       Impartiality: IRS employees are responsible for administering the penalty statutes and
        regulations in an even-handed manner that is fair and impartial to both the Government
        and the taxpayer.
       Representation: Taxpayers must be given the opportunity to have their interest heard
        and considered. Employees need to take an active and objective role in case resolution so
        that all factors are considered.3
The FTF penalty is usually 5 percent of the unpaid taxes for each month or part of a month that a
tax return is late. This penalty will not exceed 25 percent of the unpaid taxes. If a taxpayer files
his or her tax return more than 60 days after the due date or extended due date, the minimum
penalty is the smaller of $135 or 100 percent of the unpaid tax.
If a taxpayer does not pay all taxes owed by the due date, he or she will generally have to pay an
FTP penalty of one-half of one percent of the unpaid taxes for each month or part of a month


1
  I.R.C. §6651(a)(1).
2
  I.R.C. §6651(a)(2) and (3).
3
  Internal Revenue Manual 20.1.1.2.2.
                                                                                             Page 1
                                    Penalty Abatement Procedures Should
                                 Be Applied Consistently to All Taxpayers and
                                   Should Encourage Voluntary Compliance



after the due date that the taxes are not paid. This penalty can be as much as 25 percent of the
unpaid taxes. The FTP penalty will continue to accrue after the initial assessment if the taxpayer
fails to pay the total tax due when the tax return was due.
The IRS can abate both penalties under certain circumstances. Relief from these penalties is
generally granted to taxpayers who show they exercised
ordinary care and prudence, and failure to file or pay
was due to reasonable cause and not due to willful          Beginning in Calendar Year 2001,
        4
neglect. However, beginning in Calendar Year 2001,              the IRS began granting the
the IRS began granting penalty relief under an                 FTA  waiver to taxpayers who
                                                            receive  an FTF or FTP penalty but
Administrative Waiver5 known as the First-Time Abate       have a compliant tax history for the
(FTA). Using the FTA waiver, the IRS grants relief to       prior three years. The FTA waiver
taxpayers who receive an FTF or FTP penalty but have         applies only to a single tax year.
a compliant tax history for the prior three years. The
FTA waiver applies only to a single tax year.6
This review was performed at the Office of Servicewide Penalties and the Accounts
Management function in Atlanta, Georgia; Ogden, Utah; and Washington, D.C.; during the
period May 2011 through July 2012. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




4
  Penalty relief can also be granted for other reasons such as statutory exceptions or to correct IRS errors.
5
  The IRS may formally interpret or clarify a provision to provide administrative relief from a penalty that would
otherwise be assessed.
6
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                             Page 2
                                   Penalty Abatement Procedures Should
                                Be Applied Consistently to All Taxpayers and
                                  Should Encourage Voluntary Compliance




                                      Results of Review

Not All Taxpayers With Compliant Tax Histories Received the
First-Time Abate Waiver
The FTA waiver is not being granted to most taxpayers who qualify for the waiver. From the
IRS’s Individual Master File,7 we identified 278,840 taxpayers who had been assessed an
FTF penalty and 1,367,750 taxpayers who had been assessed an FTP penalty for Tax Year 2010
and appeared to qualify for the FTA waiver because they:
       Had compliant tax histories for the three prior years.
       Had not been granted abatements of either penalty for Tax Year 2010.
From a statistically valid sample of 500 of these accounts – 250 assessed FTF penalties and
250 assessed FTP penalties – we found 225 (90 percent) and 231 (92 percent) of the taxpayers
qualified for penalty relief under FTA criteria but were not granted waivers.
Taxpayers are not considered for FTF or FTP penalty relief under FTA criteria unless they
request their penalties be abated. The IRS does not widely publicize the opportunity to request
an FTA waiver. For example:
       Form 1040, U.S. Individual Income Tax Return, and its instructions do not include
        information on the FTA waiver.
       IRS.gov, the IRS’s public Internet site, web page, Eight Facts on Penalties, does not
        state that the penalties are waived if the taxpayer has been compliant for three years. The
        eighth fact on the web page states:
                 You will not have to pay a failure-to-file or failure-to-pay penalty if you can show
                 that you failed to file or pay on time because of reasonable cause and not
                 because of willful neglect.

       The balance due notices do not include information on the FTA waiver.
One of the IRS’s four principles when administering penalties is consistency – that penalties
should be applied equally in similar situations. Additionally, the United States tax system is a
system of self-assessment and payment is based on the principle of voluntary compliance.
Compliant self-assessment requires a taxpayer to know the rules for filing returns and paying


7
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 3
                                      Penalty Abatement Procedures Should
                                   Be Applied Consistently to All Taxpayers and
                                     Should Encourage Voluntary Compliance



taxes. Penalty waivers should not be granted only to taxpayers or preparers with knowledge of
IRS processes.
The penalties in our samples totaled approximately $81,000 ($60,000 in FTF penalties and
$21,000 in FTP penalties). Based on our sample results of Tax Year 2010 taxpayer accounts, we
estimate that approximately 250,000 taxpayers with FTF penalties and 1.2 million taxpayers with
FTP penalties did not receive penalty relief even though they qualified under FTA criteria. We
estimate the unabated penalties totaled more than $181 million (approximately $67 million in
FTF and $114.5 million in FTP).8

The FTA waiver could be better used to promote tax compliance
Under the IRS’s administrative authority, the IRS waives FTF and FTP penalties for taxpayers
who have demonstrated full compliance over the prior three years. However, FTA waivers may
be granted before the taxpayers actually pay their current tax liabilities.
IRS procedures state that if the tax is not paid in full on the tax period when the request for
abatement is received, the employee is to allow the FTA on the amount assessed. The FTP
penalty will start accruing again on the unpaid taxes and will continue until the tax is paid in full.
After the tax is paid in full, the taxpayer may request reasonable cause abatement of the
additional FTP penalty.9
In a statistically valid sample of 240 FTP penalty abatements, 222 taxpayers received FTA
waivers. Of those 222, 33 (15 percent) received the FTA waivers prior to paying their current
tax liabilities in full. More than half of these taxpayers had still not fully paid their taxes six
months after receiving the FTA waivers and seven still owe taxes as of the date of our review.
The purpose for granting the waiver is to reward past tax compliance and promote future tax
compliance. Granting the FTA waiver before a taxpayer pays the current tax liability does not
fully achieve this purpose.

Recommendation
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, should
better use the FTA waiver as a compliance tool by ensuring taxpayers are aware of their potential
to receive an FTA waiver based on their past compliance history. Receipt of the waiver should
be contingent upon taxpayers paying their current liability.
           Management’s Response: The Commissioner, Small Business/Self-Employed
           Division, agreed with this recommendation and will work with the Commissioner, Wage
           and Investment Division, to study how best to use the FTA waiver as a compliance tool,


8
    See Appendix IV for details on these estimates.
9
    Internal Revenue Manual 20.1.1.3.6.1.
                                                                                               Page 4
                                  Penalty Abatement Procedures Should
                               Be Applied Consistently to All Taxpayers and
                                 Should Encourage Voluntary Compliance



         including identifying ways to ensure taxpayers are aware of their potential to receive an
         FTA waiver based on their past compliance history and payment of their current liability
         within a specified time.

Controls Were Not Adequate to Identify Employee Errors When
Processing Abatement Requests
For Tax Year 2009, the IRS abated 12,427 FTF and 8,864 FTP penalties, each more than $100.
From statistically valid samples of 383 taxpayer accounts10 that contained sufficient information
to make a determination, 63 (16 percent) abatements or denial determinations were made in
error. For example:
        13 taxpayers were appropriately granted penalty relief, but the amounts abated were
         inaccurate.
        14 taxpayers were granted penalty relief; however, instead of being the FTA waiver, the
         taxpayer was granted penalty relief using other criteria, such as reasonable cause or
         statutory waiver.
        15 taxpayers were denied penalty abatements for which they qualified.
        21 taxpayers were granted penalty relief for which they did not qualify.
The IRS developed a tool called the Reasonable Cause Assistant to help its employees accurately
process penalty abatement requests. However, the Reasonable Cause Assistant does not always
provide employees with the appropriate penalty abatement determination. In these cases, IRS
employees are instructed to override the Reasonable Cause Assistant and follow Internal
Revenue Manual policies and procedures.
The Reasonable Cause Assistant made incorrect determinations for 56 of 63 (89 percent) cases
sampled. None of the inaccurate determinations were corrected by employees. IRS employees
accepted the Reasonable Cause Assistant determination even though it conflicted with Internal
Revenue Manual penalty abatement procedures.
The IRS does not have adequate controls to ensure accurate penalty abatement determinations
are consistently made. The IRS’s internal guidelines state that the IRS must arrive at the correct
penalty decision. Accuracy is essential. Erroneous penalty assessments and incorrect
calculations confuse taxpayers and misrepresent the overall competency of the IRS.11



10
   We selected samples of 242 FTF abatements, 240 FTP abatements, and 250 FTF and/or FTP abatement denials.
Of those, only 117 FTF abatements, 130 FTP abatements, and 136 FTF and/or FTP abatement denials contained
adequate documentation to determine the accuracy of the abatement determination.
11
   Internal Revenue Manual 20.1.1.2.2.
                                                                                                      Page 5
                                     Penalty Abatement Procedures Should
                                  Be Applied Consistently to All Taxpayers and
                                    Should Encourage Voluntary Compliance



We informed the IRS of our results and it took the following corrective actions:
          Refresher training has been provided to management and users of the Reasonable Cause
           Assistant addressing our issues.
          A form is being developed for taxpayers to complete to ask for abatement of the FTF and
           FTP penalties.
          A dedicated e-mail address will continue to provide answers to questions or receive
           feedback related to the Reasonable Cause Assistant.
          The Reasonable Cause Assistant was modified to begin each session with the Guided
           Selection feature. IRS management believes this should significantly increase correct
           and consistent reasonable cause selections by users.
          The IRS formed and funded a Reasonable Cause Assistant project team to make
           programming changes to the system.
          The IRS has reminded employees of the appropriate use of the abort (override) function
           when using the Reasonable Cause Assistant and has included the use of this function in
           training.
We believe these actions address our concerns and we are not making any recommendations at
this time.

Taxpayers With Reasonable Cause for Penalty Abatements May Be
Burdened by Current Procedures
IRS procedures state that taxpayers assessed the FTF or FTP penalties who qualify for both an
FTA waiver and penalty relief for reasonable cause are to be granted FTA waivers instead of
abatements for reasonable cause.12 Additionally, the Reasonable Cause Assistant researches the
taxpayer’s account history for compliance during the three prior tax years. If the history is clear,
an FTA waiver letter is generated indicating that the penalty is being waived based on
compliance history and advises the taxpayer that he or she could be penalized for noncompliance
in the future if a similar situation should arise, and that reasonable cause will only be considered
for future penalty abatements.
IRS management stated that they made the decision to grant FTA waivers before considering
reasonable cause to simplify the processing of abatement requests. Processing penalty abatement
requests by first applying FTA criteria before considering reasonable cause does simplify the
abatement process for the IRS, but it can harm taxpayers.



12
     Internal Revenue Manual 20.1.1.3.6.1.
                                                                                             Page 6
                                     Penalty Abatement Procedures Should
                                  Be Applied Consistently to All Taxpayers and
                                    Should Encourage Voluntary Compliance



Taxpayers may be precluded from receiving an FTA waiver in the future
In two statistical samples of 482 taxpayers who were granted penalty relief, 50 (10 percent)
qualified for reasonable cause but were instead granted FTA waivers. This may preclude these
taxpayers from being granted the FTA waiver in future years, and may reduce the portion of their
penalties abated. For example:
           A taxpayer with a clean compliance history asks to have his FTF penalty abated in Tax
           Year 2010 for reasonable cause (serious illness). The IRS would first consider the FTA
           waiver and the taxpayer would be granted penalty relief under FTA criteria. The following
           year, the taxpayer is late paying his Tax Year 2011 taxes, but did not have reasonable
           cause. He will be assessed an FTP penalty, which could not be waived because he had
           been granted an FTA waiver for the prior tax year. Had the taxpayer been granted
           reasonable cause for late payment for Tax Year 2010, the taxpayer would qualify for an
           FTA waiver for the FTP penalty for Tax Year 2011.

IRS guidelines state that the IRS should apply penalties equally in similar situations. Further,
taxpayers must be given the opportunity to have their interests heard and considered.13 However,
taxpayers’ requests for reasonable cause are not always considered.
Taxpayers base their perceptions about the fairness of the system on their own experience and
the information they receive from the media and others. If the IRS does not administer penalties
uniformly, taxpayers confidence in the tax system can be affected.

The portion of the FTP penalty abated under the FTA waiver could be less than
the portion abated under reasonable cause
Four (8 percent) of the 50 taxpayers sampled who were granted FTA waivers when they also
qualified for abatements for reasonable cause had less of their penalties abated than they would
have had they been granted reasonable cause. This happened because FTP penalty abatements
under the FTA waiver include the assessed amounts but not accrued amounts, whereas
FTP penalties abated for reasonable cause include the assessed and accrued amounts. For
example:
           A taxpayer timely filed a Tax Year 2010 return with a tax of $8,000, but only submits
           $4,000 with his tax return. At the time the return is processed, an initial $40 FTP penalty
           was assessed and additional amounts accrue. The taxpayer had reasonable cause for
           his failure to pay the full amount and provided the IRS with a written request in May 2012
           to abate the FTP penalty. Upon receiving the taxpayer’s request, the IRS granted the
           taxpayer an FTA waiver and abated the $40 FTP penalty. However, the taxpayer is
           required to request reasonable cause (a second time) or pay the $230 of accrued FTP as
           well as any additional FTP accruals until the tax is paid in full. If the IRS had abated the




13
     Internal Revenue Manual 20.1.1.2.2.
                                                                                                          Page 7
                                    Penalty Abatement Procedures Should
                                 Be Applied Consistently to All Taxpayers and
                                   Should Encourage Voluntary Compliance


         penalty under reasonable cause procedures, the initial $40 and the subsequent $230 in
         accruals would have been abated.14

The FTP penalty generally accrues at a rate of one-half of one percent per month on the unpaid
tax and continues to accrue until the penalty reaches a maximum of 25 percent. This penalty is
charged only on the unpaid tax and not on unpaid penalties and interest.
Most calculations and assessments for the FTP penalty are systemically calculated and posted to
a taxpayer’s account. The computer makes an initial assessment of the penalty to the taxpayer’s
account on the Master File at the time the original tax liability is assessed. The penalty continues
to accrue but is assessed only periodically, and the full amount of accrued penalty is not assessed
until the unpaid tax is paid in full and there is a credit balance available on the taxpayer’s
account to be applied to accrued amounts.15 In other words, the computer keeps track of how
much FTP penalty the taxpayer owes, but most of the penalty is never officially assessed to the
taxpayer’s account on the Master File until there are funds in the account to pay all or part of the
accrued penalty.
The IRS is responsible for administering penalty statutes and regulations in a manner that is fair
and impartial to both the Government and the taxpayer. Administering penalties in a way that
causes unnecessary burden to taxpayers who have reasonable cause for filing or paying late does
not achieve this.

Recommendation
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, should
develop a process to address the negative impact to taxpayers who qualify for abatement of the
FTF and FTP penalties based on reasonable cause, but are given FTA waivers instead.
         Management’s Response: The Commissioner, Small Business/Self-Employed
         Division, agreed with this recommendation and will work with the Commissioner, Wage
         and Investment Division, to review the current process for application of the FTA waiver
         prior to reasonable cause and its impact on taxpayers who qualify for reasonable cause,
         but instead are given an FTA waiver. Any proposed changes will consider resource
         constraints.




14
 See Appendix V for a more detailed explanation of this example.
15
 An amount is not considered assessed until it is officially recorded as a liability on a taxpayer’s account on the
Master File.
                                                                                                               Page 8
                                    Penalty Abatement Procedures Should
                                 Be Applied Consistently to All Taxpayers and
                                   Should Encourage Voluntary Compliance



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether FTF and FTP penalty abatements
were applied consistently and accurately. We focused our review on tax returns filed by
individuals with FTF and FTP penalty abatements. To accomplish this objective, we:
I.      Determined what procedures and guidelines used for processing FTF and FTP penalty
        abatements were available and whether these procedures were adequate for properly
        working penalty abatement cases.
        A. Researched IRS publications, the Internal Revenue Manual, training information, and
           Treasury Inspector General for Tax Administration and Government Accountability
           Office audit reports relating to FTF and FTP penalty abatements.
        B. Held interviews/discussions with IRS personnel associated with processing
           abatements of FTF and FTP penalties.
II.     Determined the volume of FTF and FTP penalty abatements.
        A. Obtained a computer extract from the Data Center Warehouse1 for all FTF and FTP
           penalty abatements present on the Individual Master File2 as of December 31, 2010.
        B. Selected a random sample of 30 FTF and 30 FTP penalty records and validated that
           the information from the computer extract was accurate. This was done by
           comparing the information from the computer extract to information found on the
           Integrated Data Retrieval System.3
III.    Determined if returns with FTF and FTP penalty abatements were consistently and
        accurately worked at the IRS campuses nationwide.




1
  A collection of IRS databases containing various types of taxpayer account information that is maintained by the
Treasury Inspector General for Tax Administration for the purpose of analyzing data for ongoing audits.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
3
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                            Page 9
                                   Penalty Abatement Procedures Should
                                Be Applied Consistently to All Taxpayers and
                                  Should Encourage Voluntary Compliance



        A. Selected two statistical samples of Tax Year4 2009 taxpayer accounts from the
           Individual Master File containing an FTF or FTP manual penalty abatement,5 selected
           two statistical samples of Tax Year 2010 taxpayer accounts from the Individual
           Master File potentially meeting FTA criteria,6 and selected a statistical sample of Tax
           Year 2010 taxpayer accounts from the Individual Master File potentially containing
           an FTF or FTP penalty denial.7
        B. From the Tax Year 2009 sample, reviewed the FTF and FTP abatements on the
           Integrated Data Retrieval System and taxpayer correspondence from the IRS
           Correspondence Imaging System to identify issues related to the consistent and
           accurate abatement of the FTF and FTP penalties contained on the accounts.
        C. From the Tax Year 2010 sample of accounts potentially meeting FTA criteria,
           reviewed the taxpayers’ compliance history on the Integrated Data Retrieval System
           to determine the number of taxpayers who would have qualified for an FTA waiver
           had they asked for penalty relief.
        D. From the Tax Year 2010 sample of accounts potentially containing a penalty denial,
           reviewed the Integrated Data Retrieval System and taxpayer correspondence from the
           IRS Correspondence Imaging System to first identify whether the account contained
           an FTF or FTP penalty denial and second to determine whether the penalty denial was
           justified on the accounts.




4
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
5
  We selected a statistical sample of 242 taxpayer accounts from a population of 12,427 accounts containing an FTF
manual penalty abatement of more than $100. We also selected a sample of 240 taxpayer accounts from a
population of 8,864 accounts containing an FTP manual penalty abatement of more than $100. Our sample sizes
were based on a 95 percent confidence level, an expected error rate of 20 percent, and a precision of ±5 percent.
6
  We selected a statistical sample of 250 taxpayer accounts from a population of 278,840 accounts containing an
FTF penalty and potentially meeting FTA criteria. We also selected a sample of 250 taxpayer accounts from a
population of 1,367,750 accounts containing an FTP penalty and potentially meeting FTA criteria. Our sample sizes
were based on a 95 percent confidence level, an expected error rate of 20 percent, and a precision of ±5 percent.
7
  We selected a statistical sample of 250 taxpayer accounts from a population of 9,270 accounts containing a
potential FTF or FTP penalty abatement denial. Our sample sizes were based on a 95 percent confidence level, an
expected error rate of 20 percent, and a precision of ±5 percent.
                                                                                                         Page 10
                             Penalty Abatement Procedures Should
                          Be Applied Consistently to All Taxpayers and
                            Should Encourage Voluntary Compliance



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
practices related to abating FTF and FTP penalties, and identification of potential erroneous
abatements or denial of abatements of these penalties. We assessed these controls through
interviews with IRS management, analysis of IRS policies and procedures, and review of penalty
cases abated by the IRS.




                                                                                      Page 11
                             Penalty Abatement Procedures Should
                          Be Applied Consistently to All Taxpayers and
                            Should Encourage Voluntary Compliance



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Annette Bates, Lead Auditor
Laura Paulsen, Senior Auditor
Johnathan D. Elder, Auditor
Nathan J. Smith, Auditor




                                                                                     Page 12
                           Penalty Abatement Procedures Should
                        Be Applied Consistently to All Taxpayers and
                          Should Encourage Voluntary Compliance



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Exam Policy, Small Business/Self-Employed Division SE:S:E:EP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
    Commissioner, Small Business/Self-Employed Division SE:S
    Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI




                                                                                Page 13
                                    Penalty Abatement Procedures Should
                                 Be Applied Consistently to All Taxpayers and
                                   Should Encourage Voluntary Compliance



                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This outcome measure is based on specific
cases identified through our statistically valid samples and is projected to the overall population
of taxpayers who were not given FTA waivers. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; $181,547,944 in FTF and FTP penalties were
    issued to 1,514,757 taxpayers even though these taxpayers qualified for an FTA waiver under
    clean compliance history criteria (see page 3).

Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Master File1 a computer extract of Tax Year2 2010
accounts that contained FTF and FTP penalties. From this extract, we wrote computer programs
to identify only those accounts that appeared to qualify for an FTA waiver. The result included
1,646,590 accounts which we separated into two files: 278,840 accounts with FTF penalty
assessments and 1,367,750 accounts with FTP penalty assessments. From each of the files, we
randomly selected a statistically valid sample of 250.
We reviewed a statistically valid sample of 250 of the 278,840 accounts with FTF penalty
assessments and found that 225 (90 percent) qualified for an FTA waiver but did not receive it
because it was not requested by the taxpayer. By multiplying 0.90 by the population of
278,840 accounts with FTF penalty assessments, we estimated that 250,9563 qualified taxpayers
were not given FTA waivers.
We determined that the 225 accounts in our FTF sample totaled $60,033.46 and divided by the
sample size of 250, resulted in a sample average of $240.13. By multiplying $240.13 by the




1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
3
  Our estimate is based on a 95 percent confidence level and a precision (range) of + 10,386 (240,570 – 261,342).
                                                                                                           Page 14
                                   Penalty Abatement Procedures Should
                                Be Applied Consistently to All Taxpayers and
                                  Should Encourage Voluntary Compliance



population of 278,840, we projected that $66,957,8494 in FTF penalties were assessed to
taxpayers who qualified for FTA waivers.
We reviewed a statistically valid sample of 250 of the 1,367,750 accounts with FTP penalty
assessments and found that 231 (92.4 percent) qualified for an FTA waiver but did not receive it
because it was not requested by the taxpayer. By multiplying 0.924 by the population of
1,367,750 accounts with FTP penalty assessments, we estimated that 1,263,8015 qualified
taxpayers were not given FTA waivers.
We determined that the 231 accounts in our FTP penalty sample totaled $20,944.33 and divided
by the sample size of 250, resulted in a sample average of $83.78. By multiplying $83.78 by the
population of 1,367,750, we projected that $114,590,0956 in FTP penalties were assessed to
taxpayers who qualified for FTA waivers.




4
  Our estimate is based on a 95 percent confidence level and a precision (range) of + $17,689,593 ($49,268,256 –
$84,647,442).
5
  Our estimate is based on a 95 percent confidence level and a precision (range) of + 45,016 (1,218,785 –
1,308,817).
6
  Our estimate is based on a 95 percent confidence level and a precision (range) of + $26,234,304 ($88,355,791 –
$140,824,399).
                                                                                                          Page 15
                                   Penalty Abatement Procedures Should
                                Be Applied Consistently to All Taxpayers and
                                  Should Encourage Voluntary Compliance



                                                                                                Appendix V

           Individual Master File Transcript for                 1



       Computer Assessed Failure to Pay Tax Penalty

ACCOUNT NO 123-45-6789
NAME CONT- ABCD
****************************************************************
                                                                                           This figure is the assessed module
                                                                                           balance. It is the sum of the six
**************************                                                                 assessed transactions below. The
* TAX PERIOD 30   201012 *                                                                 transaction codes (TC) represent
**************************                                                                 the following:
                                                                                           150 – Tax Liability
                                                                                           806 – Withholding Credit
                                                                                           276 – Computer Assessed Failure
ASSESSED BAL:                             3,030.00                                         to Pay Tax Penalty
FTP TOTAL:                                  230.00          05162012                       196 – Computer Assessed Interest
FTP ASSESSED-                                 0.00                                         670 – Payment
                                                                                           271 – Manual Abatement of
                                                                                           Failure to Pay Tax Penalty

        150 04152011                    8,000.00
                                                                                           The $230 figure is the total
                                                                                           assessed and accrued FTP tax
        806 04152011                    4,000.00-                                          penalty. Prior to the TC 271
                                                                                           abatement, this figure was $270.
        276 05302011                          40.00                                        The $0 figure is the assessed FTP
                                                                                           penalty. Prior to the TC 271
                                                                                           abatement, this figure was $40.
        196 05302011                          30.00
                                                                                           This specific $40 transaction is the
                                                                                           initial assessed FTP tax penalty.
        670 03312012                    1,000.00-                                          As the penalty accrues (grows)
                                                                                           after the initial assessment, it is
        271 03312012                          40.00-                                       reflected in the accrued penalty
                                                                                           figure (the FTP TOTAL amount).


This is a simulated IRS taxpayer account transcript. Although the taxpayer data are fictitious,
the transcript illustrates how the IRS computer accrues and assesses FTP penalties. In this

1
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 16
                               Penalty Abatement Procedures Should
                            Be Applied Consistently to All Taxpayers and
                              Should Encourage Voluntary Compliance



example, the taxpayer did not pay the amount due with his or her return. The IRS computer
assessed an FTP tax penalty of $40 at the time the return was processed. After that initial
assessment, the FTP tax penalty amount grew an additional $230. The $230 difference between
FTP TOTAL and FTP ASSESSED is the amount of penalty accrued but not yet assessed. The
number 05162012 signifies that the $230 in accruals is computed to May 16, 2012. In some
cases, this accrued amount could be assessed at the time an annual balance due notice is issued,
but not all taxpayers are sent this notice. Additional FTP penalty will continue to accrue until the
tax is fully paid or the 25 percent maximum penalty is reached. The accrued amount will not be
assessed until there are funds in the account to pay all or part of the penalty. For example, if a
payment of $3,230.00 was made, $200.00 ($3,230 - $3,030 = $200) in FTP penalty would be
assessed and the accrued amount would be reduced to $30.




                                                                                           Page 17
            Penalty Abatement Procedures Should
         Be Applied Consistently to All Taxpayers and
           Should Encourage Voluntary Compliance



                                                  Appendix VI

Management’s Response to the Draft Report




                                                        Page 18
   Penalty Abatement Procedures Should
Be Applied Consistently to All Taxpayers and
  Should Encourage Voluntary Compliance




                                               Page 19
   Penalty Abatement Procedures Should
Be Applied Consistently to All Taxpayers and
  Should Encourage Voluntary Compliance




                                               Page 20
   Penalty Abatement Procedures Should
Be Applied Consistently to All Taxpayers and
  Should Encourage Voluntary Compliance




                                               Page 21
